                                            NATIONAL SCIENCE FOUNDATION
                                             OFFICE OF INSPECTOR GENERAL
                                               OFFICE OF INVESTIGATIONS

                                    CLOSEOUT MEMORANDUM




        We initiated an investigation after receiv'ing allegations that a graduate student1had received
NSF funding: including travel to Hawaii and teaching stipends, without fulfilling all requirements
for an NSF fimded education project. The complainant alleged that the Principal Investigator (PIP



        We received and reviewed financial information and supporting documentation for charges to
this grant from the grantee institution4and found expendituresshowing that the graduate student was
paid from the grant and his travel expenses to Hawaii were charged to the grant. We also found
documentation that the student presented two research papers, one about his work on the NSF grant
while at a conference in Hawaii. The grantee provided support that the student was active in the
project and the travel to Hawaii was for grant related proposes. We also found support that most of
the graduate students involved in the project had traveled to other conferences and had presented
research papers at these conferences.

       Further review of the financial documentation identified no questionable expenditures
charged to the grant.

        Accordingly, this case is closed.
